November 2, 2007

ANDRE D. BOYKINS
MANAGER, STAMP DISTRIBUTION

SUBJECT:      Audit Report - Fiscal Year 2007 Financial Installation Audit –
              Kansas City Stamp Service Center – Kansas City, Missouri
              (Report Number FF-AR-08-020)

This report presents audit results for our fiscal year (FY) 2007 audit of U.S. Postal
Service Kansas City Stamp Service Center (SSC), Kansas City, Missouri (Project
Number 07BD004FF012). The Kansas City SSC serves the accountable paper needs
of post offices, stations, branches, and contract units in the Gateway, Hawkeye, Mid-
America, Central Plains and Dakotas Districts. The SSC is also responsible for
accepting all returned accountable paper and destroying redeemed stock received from
approximately 5,000 Postal Service installations within the five districts. We conducted
this self-initiated financial installation audit in support of the audit of the Postal Service’s
financial statements.

                                    RESULTS IN BRIEF

Based on the items we reviewed, generally, the internal controls we examined were in
place and effective. However, there was an internal control and compliance issue
related to the timely destruction of obsolete (nonsalable) stock. We noted the results of
our accountability examinations in the appendix.

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls at the Kansas City
SSC were in place and effective. To accomplish this objective, we performed fieldwork
from September 11 through 20, 2007. We randomly selected and physically counted 60
out of 759 stock items on September 12, 2007. We reviewed all stamp stock shipments
received during August 2007 and traced them to supporting documentation. We
observed procedures for filling and dispatching stamp requisitions on September 13,
2007. We reviewed stamp stock destruction procedures and supporting documentation
for 10 of the most recent Postal Service (PS) Forms 17, Stamp Return/Stamp
Requisition, from Postal Service Quarter 3, FY 2007.
Fiscal Year 2007 Financial Installation Audit –                                                   FF-AR-08-020
 Kansas City Stamp Service Center – Kansas City, Missouri


We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether the internal control structure over safeguarding of assets was
implemented and functioning as designed. We interviewed supervisors and employees
and observed operations at this judgmentally selected Postal Service site.

We conducted our audit from September through November 2007 in accordance with
generally accepted government auditing standards and included tests of internal
controls that were necessary under the circumstances. We discussed the results of our
audit with management officials on September 20, 2007, and included their comments
where appropriate.

                                      PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General has not conducted financial
installation audits of this unit in the past 5 years.

                                                 RESULTS

Stamp Stock Destruction Procedures Were Not Followed

The Kansas City SSC did not destroy approximately $1.7 billion worth of obsolete stock.
Postal Service policy states that all nonsalable or withdrawn items from sale stamp
stock must be destroyed each postal quarter.1 Center personnel stated the recent rate
increases in January 2006 and April 2007, prevented them from meeting the quarterly
destruction standards. According to the acting manager, ensuring installations receive
new stock with applicable rates took priority over destroying obsolete stock. The Postal
Service could incur unnecessary inventory costs and an increased risk of pilferage
when obsolete stock is not properly destroyed.

Recommendation

We recommend the Manager, Stamp Distribution, to direct unit management to:

    1. Destroy obsolete stock, as required.




1
  Handbook F-1, Post Office Accounting Procedures, Section 456, November 1996 (updated with Postal Bulletin
revisions through July 19, 2007).




                                                       2
                                            Restricted Information
Fiscal Year 2007 Financial Installation Audit –                              FF-AR-08-020
 Kansas City Stamp Service Center – Kansas City, Missouri


We would appreciate a written response to our finding and recommendation by
December 4, 2007. Please e-mail the response to me at jwiethop@uspsoig.gov and
Katherine S. Banks, Manager, Corporate Audit and Response Management, U.S.
Postal Service at CARMManager@usps.gov. The e-mailed response should include
the signature of the Manager Stamp Distribution. The response should also indicate
agreement or disagreement with the finding and recommendation and describe actions
taken or planned with the associated completion dates. We will consider responses that
do not indicate the actual completion date or planned completion date as not responsive
and may pursue formal audit resolution. We will notify you within 15 days after
receiving your response if we do not consider your corrective action responsive to our
recommendations. Otherwise, consider your corrective action to be responsive.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Sean Balduff at (314) 439-6008 or me at (314)
439-6021.

   E-Signed by John Wiethop
ERIFY authenticity with ApproveI




John G. Wiethop
Director, Field Financial - Central

cc : Vincent H. DeVito, Jr.
     Stephen J. Nickerson
     Steven R. Phelps
     Thelma Butler
     Diane L. Dalsing
     Katherine S. Banks




                                                    3
                                         Restricted Information
Fiscal Year 2007 Financial Installation Audit –                                                    FF-AR-08-020
 Kansas City Stamp Service Center – Kansas City, Missouri


                                 APPENDIX
                    ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the
audit. There were 759 inventory items totaling $3,095,136,160 as of September 11,
2007. We randomly selected a sample of 60 items to examine based on a weighted
average of the dollar amount of items. The sample was selected from vaults containing
salable items--vaults 1, 2, 3, 6, 7 and 8. Shortages and overages presented are the
total value of all shortages and overages identified during the examination of each vault
accountability.


                              Total Value of          Total Value of             Total Value of All
                             Accountability          Accountability
     Accountability          for Sample per          for Sample per
                                Inventory                  OIG               Shortages Overages
                                  Report              Examination

           Vault 1            $9,307,176.57           $9,306,978.37           ($198.20)            $0


           Vault 2             7,749,363.05            7,749,361.55              (1.50)             0


           Vault 3             5,666,298.97            5,666,306.45                 0             7.48


           Vault 6           193,894,058.30           193,894,271.50                0            213.20


           Vault 7           616,085,681.15           616,085,681.15                0               0


           Vault 8            20,906,520.00           20,906,520.00                 0               0


            Total           $853,609,098.04 $853,609,119.02                   ($199.70)2       $220.682




2
  The total difference between overages ($220.68) and shortages ($199.70) equals an immaterial overage of $20.98.
Unit personnel adjusted the overages and shortages by completing PS Form 8144, Stamp Discrepancy Report, and
inputting the results to the Stamp Service System.



                                                        4
                                             Restricted Information
